CERTIFICATE OF COMPLIANCE
No. 20-1125

Antonio Devoe Jones,
Petitioner
v.
State of Alabama,
Respondent
As required by Supreme Court Rule 33.1(h), I certify that the Reply in
Support of the Petition for Writ of Certiorari contains 643 words, excluding the
parts of the Reply Petition for Writ of Certiorari that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 30, 2021

/s/ Steven A. Miller
Steven A. Miller*
REED SMITH LLP
10 South Wacker Drive
Chicago, IL 60606-7507
Telephone: +1 312 207 1000
Facsimile: +1 312 207 6400
samiller@reedsmith.com
*Counsel of Record,
Member of Supreme Court Bar,
Counsel for Petitioner

